                  Compliance Opportunities Exist for the
                    Internal Revenue Service to Use
                      Foreign Source Income Data

                                     July 2005

                       Reference Number: 2005-30-101




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
Please contact me at (202) 622-6510 if you have questions or Richard Dagliolo,
Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs), at 631-654-6028.
